            OFFICE OF
     THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


  THE SOCIAL SECURITY ADMINISTRATION’S
 INFORMATION TECHNOLOGY MAINTENANCE
        AND LOCAL AREA NETWORK
         RELOCATION CONTRACT


       May 2007      A-14-07-17022




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                           SOCIAL SECURITY
MEMORANDUM

Date:      May 21, 2007                                                           Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   The Social Security Administration’s Information Technology Maintenance and Local
           Area Network Relocation Contract (A-14-07-17022)


           OBJECTIVE

           The objective of our review was to determine whether the Social Security Administration
           (SSA) has adequate controls in place for the administration, oversight and
           accountability of its contract for information technology maintenance and local area
           network (LAN) relocation. 1

           BACKGROUND

           In July 2002, SSA awarded TFE Technology Holdings LLC (TFE) a performance-based
           contract to maintain and relocate Government-owned LANs, also known as computer
           networks, and associated peripheral 2 equipment. TFE was acquired by Diebold,
           Incorporated in 2004 and the company's name changed to Diebold Information and
           Security Systems LLC (Diebold-ISS) effective May 18, 2005. A typical SSA computer
           network includes equipment such as workstations, LAN cabinets, file servers, bridges,
           routers, switches, and printers with stands. LAN equipment is a critical part of SSA’s
           operating environment, and is used daily by SSA and Disability Determination Services
           employees nationwide. A recent article in Government Computer News aptly stated:
           “Networks…form a critical part of the infrastructure of all agencies. Without a working
           network, most agency activity would quickly grind to a complete halt.” 3



           1
               SSA Contract Number: 0600-02-60007.
           2
            Peripheral equipment is a computer device (such as a keyboard or printer), that is not part of the
           essential computer, i.e., the memory and microprocessor. Some other examples of peripheral devices
           are a mouse, compact disc read-only memory drive (commonly known as CD-ROM drive), monitor,
           external zip drive, scanner and modem.
           3
            McCormick, John, “Plug and Play: Network appliances help ease major changes to the system,”
           Government Computer News, (August 7, 2006), page 20.
Page 2 - The Commissioner

Diebold-ISS performs the following tasks under the contract:

1. Task Orders, indefinite delivery and quantity orders, to repair and modify LANs,
   install components, analyze networks, and provide advice about efficient network
   usage. Diebold-ISS bills SSA based on fixed hourly rates.

2. Relocation Services to deinstall, pack, ship and reinstall LANs; bring equipment
   back up to working order; and dispose of packing material. Diebold-ISS bills SSA a
   fixed price per call based on the number of components relocated.

3. Maintenance services to repair and replace broken computer workstations and
   peripherals. Diebold-ISS bills SSA a fixed price per call based on the equipment
   type. In an effort to cut contract costs, SSA added drop shipment maintenance
   repairs to the Statement of Work in February 2004. The drop shipment pricing
   includes the cost of a component device, such as a mouse or a keyboard, and the
   cost of overnight shipping. The equipment is replaced by the end-user or the
   Agency’s site LAN coordinator.

The contract term is 1 year beginning on September 1, 2002, with 4 1-year options to
renew. The fifth contract year began on October 1, 2006. The maximum contract
amount is $75 million. As of the end of our field work in October 2006, $51.8 million
was obligated under the contract. The SSA project officer in the Office of
Telecommunications and Systems Operations (OTSO) and the SSA Contracting Officer
in the Office of Acquisition and Grants (OAG) are authorized to place task
orders/delivery orders under the contract.

RESULTS OF REVIEW

SSA generally has adequate controls in place for the administration, oversight and
accountability of its contract for information technology maintenance and LAN
relocation. Some of the controls are:
   •   separation of duties between (1) procurement and contract administration,
       (2) program oversight, (3) finance and accounting, and (4) contractor suitability
       determination;

   •   invoices must be certified before payment;

   •   obligation transactions flow electronically from the procurement administration
       system to the accounting system;

   •   maintenance transactions are comprehensively tracked from the date the
       problem is reported to SSA’s Network Customer Service Centre to the date the
       problem is resolved; and
Page 3 - The Commissioner

    •   maintenance invoices include the contract line item number and key information
        regarding the services rendered.

There are areas of contract management that need to be addressed, including:

    •   suitability determinations were not performed for all Diebold-ISS staff with access
        to SSA buildings and equipment;
    •   some paid invoices were not sufficiently supported;
    •   information was not recorded in the accounting system to distinguish payments
        made against specific order numbers;
    •   internal control weakness existed in contract oversight; and
    •   contractor’s reports on the destruction of hard drives were not made as required.

At the end of our fieldwork, we shared our findings and recommendations with SSA
employees responsible for managing the contract. The Agency’s contracting, program,
accounting, and suitability offices have subsequently taken steps to address most of
our findings.

SUITABILITY DETERMINATIONS WERE NOT PERFORMED FOR ALL
DIEBOLD-ISS STAFF WITH ACCESS TO SSA BUILDINGS AND EQUIPMENT

A number of the Diebold-ISS employees and its subcontractor staff involved in office
relocations we reviewed 4 did not receive background checks and should not have been
allowed to work on-site at an SSA facility or have access to Agency programmatic or
sensitive information. As a result, SSA is exposing its sensitive data to possible
compromise.

We did a two-step review of the contractor’s compliance with the Agency’s Protective
Security Clause 5 found in the Diebold-ISS contract. Through interviews and the review
of SSA and Diebold-ISS documentation, we found that four Diebold-ISS staff working
under the contract did not receive a background check as required by the Protective
Security Clause. One of the four nonapproved Diebold-ISS staff received SSA’s
replaced computer hard drives for destruction. Additionally, a Diebold-ISS contract
administrator informed us that its staff no longer request suitability approvals for
movers. However, SSA’s suitability office informed us that the suitability determination
requirement for the movers was not waived.

4
 We reviewed documentation from relocations at SSA offices in Tampa-Carrollwood, Florida,
October 2006; Ann Arbor, Michigan, October - November 2006; Freeport, New York, November 2006; and
Pomona, California, November 2006.
5
 The purpose of the Protective Security Clause is to provide procedures for obtaining suitability
determinations for contractor personnel who will be performing under the contract. “Performing under the
contract” is defined as either working on-site at an SSA facility (including visiting the SSA site for any
reason) or having access to agency programmatic or sensitive information.
Page 4 - The Commissioner

As a result of the initial findings, we reviewed documentation from four Agency
relocations that took place in October and November 2006. According to Agency
suitability records, 4 of the 9 Diebold-ISS staff involved in the moves and all
27 subcontractor staff did not receive background checks and should not have been
permitted to work on-site at an SSA facility or have access to Agency programmatic or
sensitive information.

We recommend SSA strengthen internal controls to ensure that contractor personnel
performing under contracts have obtained the appropriate background checks prior to
beginning work on a contract. Additionally, we expect that full implementation of
                                                        6
Homeland Security Presidential Directive 12 (HSPD-12) by SSA will help ensure that
background checks are conducted on all contract employees working on contracts of
this nature. HSPD-12 requires that mandatory common identification standards for
Federal employees and contractors be implemented to ensure that secure and reliable
forms of identification are issued by the Federal Government to its employees and
contractors, including contractor employees.

SOME INVOICES WERE NOT SUFFICIENTLY SUPPORTED

We selected a sample of Diebold-ISS task order, relocation and maintenance
transactions for testing (see Appendix B for the details of the sampling methodology).
We reviewed 340 of the 83,616 requests for services initiated over the first 4 contract
      7
years. The table on page 5 reflects the results of our review:

Task Orders

We reviewed 100 task orders and found that 63 were billed and paid according to the
agreed-upon prices detailed in the contract and 2 were not. Additionally,
32 transactions did not have enough support with the invoice to determine whether the
services were billed and paid according to agreed-upon prices. For task orders billed at
fixed hourly rates, the vendor did not always indicate the number of hours for which
SSA was being billed or the hourly rate charged. Three task orders were erroneously
paid in excess of the amount certified by the program office. The overpaid amounts
were recovered in December 2005.




6
 August 2004 Presidential Policy for a Common Identification Standard for Federal Employees and
Contractors.
7
  The first 4 contract years are as follows: Year 1-September 1, 2002 through August 31, 2003; Year 2-
September 1, 2003 through September 30, 2004; Year 3-October 1, 2004 through September 30, 2005;
and Year 4-October 1, 2005 through September 30, 2006. For Year 4, we tested transactions processed
through June 30, 2006.
Page 5 - The Commissioner

Relocation Orders

We reviewed 100 LAN relocation orders and found that 76 were billed and paid
according to agreed-upon prices detailed in the contract and 7 were not. Additionally,
17 did not have enough support with the invoice to determine if the services were billed
and paid according to agreed-upon prices. Additionally, the vendor did not always
update the supporting documentation to reflect changes in the number of LAN
equipment moved after the original purchase order was created. The original order is
typically prepared many months ahead of the scheduled move date. Without this
information, it was difficult to accurately determine, by looking at the invoice and its
support, whether the Agency was billed the correct amount.

Maintenance

We reviewed 140 maintenance transactions. With the exception of one transaction, the
billed maintenance services were all billed and paid according to agreed-upon prices
detailed in the contract. Four requests for services were not billed by the vendor
because they were either resolved by the user or the vendor reported the equipment
was not covered under the contract. The maintenance invoices showed the
corresponding SSA problem management (PM) number and enough information about
the specific work performed to confirm whether the appropriate amounts were billed
and paid.

According to Federal Acquisition Regulation (FAR), 8 contract payment will be based on
receipt of a proper invoice and satisfactory contract performance. Invoices should
include the description, quantity, unit of measure, unit price, and extended price of
supplies delivered or services performed. SSA should ensure that invoices submitted

                                  TRANSACTION TEST RESULTS
                  Type                   Total      Task Order       Relocation     Maintenance
Number of transactions reviewed           340           100             100                140
     Paid according to agreed upon
                                          274            63              76                135
                  prices
    Not paid according to agreed upon
                                          10             2                7                1
                  prices
           Not billed/Not paid             4              -               -                4
    Not enough support provided with
       invoice to determine if paid       49             32              17                 -
     according to agreed upon prices
    Paid in excess of certified amount     3             3                -                 -


8
 FAR 52.212-4 – Contract Terms and Conditions - Commercial Items and FAR 32.905 – Prompt
Payment: Payment documentation and process.
Page 6 - The Commissioner

by the vendor are properly supported to make certain a sufficient review can be made
before certification and payments occur. Based on our recommendation, the Agency
contacted Diebold-ISS representatives who informed the Agency that it is now taking
steps to improve the support provided with invoices. Additionally, we recommend the
Agency resolve the incorrectly billed payments made to Diebold-ISS. SSA contract
managers contacted Diebold-ISS representatives and are now working with Diebold-
ISS to resolve any incorrectly billed amounts.

INFORMATION IS NOT RECORDED IN THE ACCOUNTING SYSTEM TO
DISTINGUISH PAYMENTS MADE AGAINST SPECIFIC ORDER NUMBERS

The accounting system did not contain enough detailed information about the
Diebold-ISS task and relocation invoices paid to easily query the system to locate
actions related to a specific order number. For example, there was not enough
information in the accounting system to easily determine whether three of the invoices
we reviewed, which were paid in excess of the certified amounts, had already been
recovered by the Agency. Without the specific invoice number, it is difficult to retrieve
the payment information and activity concerning a particular relocation or task order
transaction on the Diebold-ISS contract. When SSA payment processing staff
members contacted Diebold-ISS in November 2006 to report the three payments made
in excess of the certified amounts, they were informed that SSA had already recovered
the funds by reducing the amount paid on another invoice in December 2005.
Transactions should be promptly recorded, properly classified and accounted for to
prepare timely accounts and reliable financial and other types of reports. The
documentation for transactions, management controls, and other significant events
must be clear and readily available for examination. 9

During the first few contract years, relocation and task order numbers were recorded in
the description field in the financial accounting system when the invoices were paid.
However, the Office of Finance has subsequently discontinued capturing this
information. To allow for more management information concerning the orders against
the contract, we recommend recording relocation and task order numbers in the
financial accounting system.

INTERNAL CONTROL WEAKNESS EXISTS IN CONTRACT OVERSIGHT

The Diebold-ISS contract does not indicate that an alternate project officer is assigned.
As a result, no one is officially designated in the contract as a back-up to represent the
project officer in the technical phases of the contract. Also, allowing a single individual
to manage a contract with no alternate available places too much control in the hands
of a single individual with insufficient oversight of the project officer’s role. SSA’s
practice is to assign a project officer and an alternate project officer to every contract. 10
9
    Office of Management and Budget Circular A-123, II. Establishing Management Controls.
10
  Material Resources Manual Chapter 06, Instruction Number 05: Technical Support for Acquisitions –
The Role of the Project Officer.
Page 7 - The Commissioner

According to the Diebold-ISS contracting officer, the project officer did not want an
alternate assigned. However, an alternate project officer would improve checks and
balances in contract oversight. Additionally, by being available to help manage and
resolve contract issues, the alternate would provide an independent view of the contract
activities. Therefore, to support best practices and improve internal controls, we
recommend that the program office designate an alternate project officer in the
contract.

CONTRACTOR REPORTS ON THE DESTRUCTION OF HARD DRIVES WERE NOT
MADE AS REQUIRED

The contractor did not issue required monthly reports to SSA about hard drive
destruction until sometime in 2006, after we requested them for review during our audit
field work. Without the reports, the Agency did not have formal documentation to
monitor whether the hard drives were wiped per SSA standards and to identify the
disposition of the equipment. The contract was modified in August 2004 to require
Diebold-ISS to document and issue monthly certification reports to the Agency on hard
drive replacements and disposition. According to the contract modification, the report
should include a statement describing the method or methods used for destruction of
the replaced hard drive(s). The contractor shall also provide on each report the SSA
PM number, contractor case number, drive model and serial number, and the date
destroyed.

SSA did not have formal ongoing hard drive destruction verification process for the hard
drives disposed of by Diebold-ISS. However, in March 2006, the project officer
received the results of an independent contractor’s review which found that two hard
drives destroyed by Diebold-ISS were effectively wiped clean of data. Additionally, in
May 2006 the project officer performed an in-house test of several hard drives and
found Diebold-ISS had properly wiped or destroyed data from the hard drives.

In discussions with the vendor, we learned that not all SSA hard drives were destroyed
using the same methodology. The contractor informed auditors that its staff
documented the destruction of the hard drives but failed to make the monthly reports to
SSA. Based on our review of hard drive destruction reports for August, September and
October 2006, the contractor has taken steps to report the required monthly
information.

We recommend SSA ensure that future hard drive destruction reports are made timely
and include the required information. We also recommend SSA ensure it receives
reports for all equipment replaced and destroyed by Diebold-ISS since August 2004
with the required information concerning disposition. This will help ensure an
appropriately documented chain of custody of the SSA equipment. Finally, we
recommend SSA continue to periodically ask for a sample of replaced hard drives to
test to determine whether Diebold-ISS erased or otherwise destroyed all data on the
units as required.
Page 8 - The Commissioner

CONCLUSION AND RECOMMENDATIONS
SSA generally has adequate controls in place for the administration, oversight and
accountability of its contract for information technology maintenance and LAN
relocation. However, there are areas of contract management that need to be
improved. A number of Diebold-ISS staff did not have suitability approval to perform
under the contract. Additionally, the support Diebold-ISS provides with invoices should
be improved to ensure enough information is available to confirm whether services
were billed according to agreed-upon prices detailed in the contract. Finally, several
weaknesses in controls over contract oversight and information recording need to be
addressed.

We recommend SSA:

   1. Strengthen internal controls to ensure that contractor personnel performing
      under contracts have obtained the appropriate suitability determinations.

   2. Continue to work with Diebold-ISS to improve the support provided with invoices
      for task and relocation orders.

   3. Resolve the incorrectly billed payments made to Diebold-ISS, as appropriate.

   4. Assess the feasibility of recording relocation and task order numbers in the
      Agency’s financial accounting system.

   5. Designate an alternate project officer in the Diebold-ISS contract.

   6. Ensure future hard drive destruction reports are made timely and include the
      required information.

   7. In cases where incomplete hard drive destruction reports were provided to SSA
      after August 2004, request that Diebold-ISS provide updated reports where
      necessary.

   8. Continue to periodically ask for a sample of replaced hard drives to test to
      determine whether Diebold-ISS erased or otherwise destroyed all data on the
      units as required.
Page 9 - The Commissioner

AGENCY COMMENTS
SSA agreed with our recommendations (see Appendix C).




                                           Patrick P. O’Carroll, Jr.
                                    Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope, Methodology and Test Results
APPENDIX C – Agency Comments
APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                             Appendix A

Acronyms
Diebold-ISS   Diebold Information and Security Systems LLC
FAR           Federal Acquisition Regulation
HSPD-12       Homeland Security Presidential Directive -12
LAN           Local Area Network
OAG           Office of Acquisition and Grants
OIG           Office of the Inspector General
OTSO          Office of Telecommunications and Systems Operations
PM            Problem Management
SSA           Social Security Administration
SSN           Social Security Number
TFE           TFE Technology Holdings LLC
                                                                               Appendix B

Scope, Methodology and Test Results
We conducted our audit field work between June and November 2006 in
Baltimore, Maryland.
The principal entities audited were the Social Security Administration’s (SSA):
    •   Office of Acquisition and Grants, the contracting office; and

    •   Office of Telecommunications and Systems Operations, the program office.
We also reviewed records and interviewed staff in the Agency’s:
    •   Deputy Commissioner for Budget, Finance and Management (DCBFM), Office of
        Finance; and

    •   DCBFM, Office of Personnel, Center for Personnel Security and Project
        Management.
We conducted our audit in accordance with generally accepted government auditing
standards. To meet our objective, we:
    •   reviewed applicable Federal laws and regulations and applicable SSA policies
        and procedures;

    •   reviewed the contract for Information Technology Maintenance and Local Area
        Network Relocation, number 0600-02-60007;

    •   interviewed Agency and Diebold Information and Security Systems LLC
        (Diebold-ISS) staff;

    •   reviewed and observed Agency contract management processes;

    •   tested task order, relocation and maintenance transactions in September and
        October 2006;

    •   reviewed Agency contractor suitability records; and

    •   reviewed documentation from four Agency relocations which took place in
        October and November 2006 1 to determine if Diebold-ISS staff were approved
        suitable to work on-site at an SSA facility or have access to Agency
        programmatic or sensitive information.



1
 We reviewed documentation from relocations at SSA offices in Tampa-Carrollwood, Florida, October
2006; Ann Arbor, Michigan, October - November 2006; Freeport, New York, November 2006; and
Pomona, California, November 2006.


                                                B-1
          Table 1: Diebold-ISS Contract Statistical Sampling Information

                                                                          Maintenance
                                                          Relocation
                                        Task Orders                         Service
                                                          Requests
                                         (Excludes                         Requests
        Description        Totals                         (Excludes
                                         Cancelled                         (Excludes
                                                          Cancelled
                                          Orders)                          Cancelled
                                                           Orders)
                                                                            Orders)
      Universe Count       83,616           603              433             82,580

       Sample Items          340            100              100              140

      Sample Dollars    $ 2,726,132      $ 459,992        $ 2,170,083       $ 96,057


Further, we determined that the Agency's computerized data used to record relocation
orders, task orders and maintenance calls made to the vendor and the suitability
records pertaining to Diebold-ISS staff were sufficiently reliable given the audit objective
and intended use of the data and should not lead to incorrect or unintentional
conclusions.

Testing Methodology and Results
For testing, we selected a sample of task order, relocation and maintenance requests
for Diebold-ISS services made by SSA during the first 4 contract years. We reviewed
340 transactions totaling $2.7 million from the sampling universe reflected in Table 1.
The total universe was 83,616 transactions.
First, we selected 120 transactions, consisting of the 5 largest and 5 smallest dollar
transactions for each of the first 4 contract years, for each of the 3 service types (task
order, relocation and maintenance).
Second, we randomly selected 220 transactions through a statistical sampling
methodology by contract year and type, as follows:
   1. Task Orders: 15 transactions per contract year,
   2. Relocation Orders: 15 transactions per contract year, and
   3. Maintenance: 25 transactions per contract year.




                                            B-2
Testing results are reflected in tables 2 through 4, which follow.

Table 2: Diebold-ISS Contract Testing Review Results – Review of 100 Task Order
                                  Transactions
                                                Total         YR 1      YR 2        YR 3        YR 4
             TASK ORDER
                                                100           25         25           25         25
  Paid according to agreed upon
                                                 63            10        16           17         20
               prices
Not paid according to agreed upon
                                                  2            -         12           13          -
               prices
Not enough support provided with
    invoice to determine if paid                 32            15         8           4           5
 according to agreed upon prices
Paid in excess of certified amount                3            -          -           34          -
Paid Invoice Certified by Program
                                                100           25         25           25         25
              Office
  Paid transactions recorded in
                                                100           25         25           25         25
       accounting system

The attributes we considered to evaluate whether the test transactions were processed
correctly were:

      1. For the service rendered, was the amount billed and paid in accordance with the
                                                      5
         agreed upon prices detailed in the contract;
      2. Was the paid invoice certified by the program office; and
      3. Was a corresponding payment recorded in the accounting system.




2
    Contract Year 2 – TO0345 overbilled $2,990.
3
    Contract Year 3 – TO0399 overbilled $206.
4
 Contract Year 3 - Three invoices were paid in excess of the certified amount. The overpaid amounts
were as follows: TO554 - $12,514.50, TO555 - $20,394.00 and TO556 - $20,857.50. The Office of
Finance recovered the overpaid amount of $53,766 from Diebold-ISS in December 2005.
5
    Contract Addendum B – Cost Tables.


                                                        B-3
Table 3: Diebold-ISS Contract Testing Review Results - Review of 100 Relocation
                                 Transactions
                                          Total           YR 1           YR 2           YR 3         YR 4
          RELOCATION
                                           100               25           25             25          25
  Paid according to agreed
                                            76               21           18             22           15
         upon prices
Not paid according to agreed                                                  6              7
                                            7                -            6              1            -
         upon prices
     Not enough support
   provided with invoice to
                                            17               4             1              2          10
 determine if paid according
    to agreed upon prices
                                                                                                 8
                                                                                         24
     Paid invoice certified by                                                        certified/
                                            99               25           25                         25
         program office                                                                 (1 not
                                                                                      located)

Paid transactions recorded in
                                           100               25           25             25           25
     accounting system




6
 Contract Year 2 – RL0237 – Underbilled $7,638.48; RL0101 – Underbilled $99; RL0103 – Underbilled
$24; RL0176 – Overbilled $2,472; RL00217 – Overbilled $2,472; RL0255 – Overbilled $457.
7
    Contract Year 3 – RL0444 – Overbilled $343.
8
    Unable to locate copy of RL0347 in accounting office to determine if certified.


                                                       B-4
       Table 4: Diebold-ISS Contract Testing Review Results – Review of 140
                             Maintenance Transactions
                                          Total          YR 1          YR 2         YR 3          YR 4
          MAINTENANCE
                                           140              35          35            35           35
Paid according to agreed upon
                                           135              34          33            33           35
            prices
 Not paid according to agreed
                                            1                0           19            0            0
         upon prices
              Not billed                    4               1 10        1 11          2 12          0
      Paid Invoice Certified by
                                           136              34          34            33           35
           Program Office
    Paid transactions recorded in
                                           136              34          34            33           35
         accounting system




9
    Contract Year 2 – Maintenance Problem Number 283077 - Overbilled $67.20 ($70 minus 4% discount).
10
  Contract Year 1 - Project officer is unsure why item was not billed but reported it is likely a duplicate
and/or cancelled order. CAPRS record for this contract year is archived.
11
     Contract Year 2 - Maintenance item fixed by user.
12
     Contract Year 3 - One item not covered under contract and the other item fixed by the user.


                                                      B-5
                  Appendix C

Agency Comments
                                         SOCIAL SECURITY


MEMORANDUM


Date:      April 30, 2007                                                         Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye /s/
           Thru: OEO_____________

Subject:   Office of the Inspector General (OIG) Draft Report, “Review of the Social Security
           Administration’s Information Technology Maintenance and Local Area Network Relocation
           Contract” (A-14-07-17022)--INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report content
           and recommendations are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.

           Attachment:
           SSA Response




                                                         C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “REVIEW OF THE SOCIAL SECURITY ADMINISTRATION’S
INFORMATION TECHNOLOGY MAINTENANCE AND LOCAL AREA NETWORK
RELOCATION CONTRACT” (A-14-07-17022)

Thank you for the opportunity to review and comment on the draft report. We appreciate your
conducting this audit of SSA’s information technology maintenance and local area network
relocation contract.

Recommendation 1

SSA should strengthen internal controls to ensure that contractor personnel performing under
contracts have obtained the appropriate suitability determinations.

Comment

We agree. On April 3, 2007, SSA received a list from Diebold Information and Security Systems
LLC (Diebold-ISS) with the names of approximately 540 Diebold-ISS employees. As of April 5,
2007, SSA sent Relocation and Task Order letters to Diebold-ISS that contained the requirements
set forth in Addendum D-20 of the contract. Addendum D-20 states the contractor and
subcontractors are required to submit a copy of their suitability letters to the project officer 10 days
prior to a Relocation or Task Order activity.
However, one-time visits require a waiver. The waiver consists of all security clearance forms
with the exception of fingerprint cards. This waiver is for a one time visit to any SSA building. If
the same contractor/subcontractor needs to make another visit to any SSA building in the future,
they will have to meet the full requirements of the suitability regulations.

Recommendation 2

SSA should continue to work with Diebold-ISS to improve the support provided with invoices for
task and relocation orders.

Comment

We agree. In November 2006, the Agency sent a letter to Diebold-ISS requesting more detailed
billing information in support of invoices being submitted for payment. As a result, Diebold-ISS is
now providing additional information with its invoices.




                                                 C-2
Recommendation 3

SSA should resolve the incorrectly billed payments made to Diebold-ISS, as appropriate.

Comment

We agree. The Agency is reviewing the invoices in question. We note that during the review SSA
contract managers contacted Diebold-ISS representatives and are now working with Diebold-ISS to
resolve any incorrectly billed amounts and to immediately recover any payments made in error.

Recommendation 4

SSA should assess the feasibility of recording relocation and task order numbers in the Agency’s
financial accounting system.

Comment

We agree. The Agency has developed and implemented new procedures to ensure that relocation
and task order numbers are correctly recorded in the Agency’s financial accounting system. These
new procedures were implemented in March 2007 and employees have been informed and trained
on the new procedures.

Recommendation 5

SSA should designate an alternate project officer in the Diebold-ISS contract.

Comment

We agree. The Agency is in the process of modifying the existing contract to add an alternate
project officer.

Recommendation 6

SSA should ensure future hard drive destruction reports are made timely and include the required
information.

Comment

We agree. The November 2006 letter sent to Diebold-ISS addressed this recommendation.
Diebold-ISS is to submit a monthly report on the certification/report of hard drive replacement and
disposition. The reports are to be submitted to the project officer timely and should contain all of
the information that is outlined in the contract.




                                               C-3
Recommendation 7

In cases where incomplete hard drive destruction reports were provided to SSA after August 2004,
SSA should request that Diebold-ISS provide updated reports where necessary.

Comment

We agree. In April 2007, Diebold-ISS provided SSA with updated destruction reports.

Recommendation 8

SSA should continue to periodically ask for a sample of replaced hard drives to test to determine
whether Diebold-ISS erased or otherwise destroyed all data on the units as required.

Comment

We agree. On March 16, 2007, the Agency requested that Diebold-ISS send at least 2 hard drives
that have been destroyed for our inspection. Since then, we have received 2 hard drives that were
degaussed. Also, On March 27, 2007 Task Order number 0797 was issued to send the hard drives
to a Data Recovery Facility to attempt to recover the data. The Data Recovery Facility will prepare
a report of findings upon completion of the task order.




                                               C-4
                                                                     Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kitt Winter, Director, Data Analysis and Technology Audits Division, (410) 965-9702

   Al Darago, Audit Manager, Application Controls Branch, (410) 965-9710

Acknowledgments

In addition to those named above:

   Deborah Kinsey, Auditor-in-Charge

   Anita McMillan, Senior Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification
Number A-14-07-17022.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                         Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure program
objectives are achieved effectively and efficiently. Financial audits assess whether SSA’s
financial statements fairly present SSA’s financial position, results of operations, and cash flow.
Performance audits review the economy, efficiency, and effectiveness of SSA’s programs and
operations. OA also conducts short-term management and program evaluations and projects on
issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
